   DEPARTMENT OF HOMELAND SECURITY
             Office of Inspector General



                Lessons Learned from the 

           August 11, 2007, Network Outage at 

            Los Angeles International Airport

                       (Redacted) 





     Notice: The Department of Homeland Security, Office of the Inspector General, has redacted
     this report for public release. A review under the Freedom of Information Act (5 U.S.C.
     552), will be conducted upon request.




OIG-08-58                                                                      May 2008
                                                        Office of Inspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




                                     May 28, 2008

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296), by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses lessons learned from the U.S. Customs and Border Protection’s
management of the network outage at Los Angeles International Airport on
August 11, 2007. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and reviews of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                    Richard L. Skinner 

                                    Inspector General 





.
Table of Contents/Abbreviations 



Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 3


    Actions Taken During the Network Outage................................................................... 3 


    Lessons Learned ............................................................................................................. 6 

    Recommendations ........................................................................................................ 11 

    Management Comments and OIG Analysis................................................................. 12 


    Other CBP Ports of Entry May Experience Similar Outages....................................... 13 

    Recommendations ........................................................................................................ 14 

    Management Comments and OIG Analysis................................................................. 14 


Appendices
     Appendix A:             Purpose, Scope, and Methodology .....................................................15 

     Appendix B:             Management Comments to Draft Report ...........................................16 

     Appendix C:             August 11, 2007, LAX Network Outage Timeline ............................17 

     Appendix D:             Major Contributors to This Report.....................................................18 

     Appendix E:             Report Distribution ............................................................................19 


Abbreviations

     Bradley Terminal                       Tom Bradley International Terminal

     CBP                                    U.S. Customs and Border Protection     

     CIO                                    Chief Information Officer 

     DHCP                                   Dynamic Host Configuration Protocol

     DHS                                    Department of Homeland Security      

     IT                                     Information Technology      

     LAN                                    Local Area Network 

     LAX                                    Los Angeles International Airport   

     NOC                                    Network Operations Center     

     OIG                                    Office of Inspector General   


     PDT                                    Pacific Daylight Time

     SOC                                    Security Operations Center 

     TECS                                   Treasury Enforcement Communications System 





.
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                       We evaluated actions taken by US Customs and Border
                       Protection (CBP) to address the network outage at Los Angeles
                       International Airport (LAX) on August 11, 2007. We also
                       evaluated actions CBP took to prevent a similar outage from
                       occurring again. We performed onsite inspections at the airport,
                       interviewed department staff, and conducted technical tests of
                       workstations involved in the outage. We also reviewed applicable
                       department policies, procedures, and other appropriate
                       documentation.

                       The August 11, 2007, network outage at LAX prevented CBP from
                       conducting its normal operations for approximately 10 hours and
                       affected more than 17,000 passengers. CBP has taken actions to
                       ensure that a similar outage does not recur at this airport. These
                       actions include updating its network topology and ensuring that
                       backup systems can be deployed quickly.

                       We are recommending additional actions that CBP could
                       implement to manage network outages more effectively. For
                       example, the CBP Network Operations Center (NOC) could use
                       onsite support staff more effectively to isolate and resolve outages.
                       Additionally                                    and automatic error
                       notification messages should be established. Further, contingency
                       planning documentation for the network at LAX should be
                       updated.

                       While CBP has taken actions to prevent an outage from recurring
                       at LAX, the conditions that gave rise to the outage may also exist
                       at other ports of entry. We are recommending that CBP determine
                       whether their actions taken at LAX should also be taken at other
                       ports of entry. CBP management concurred with our
                       recommendations.




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                              Page 1
Background
                            On August 11, 2007, the CBP network at LAX experienced an
                            outage that started at approximately 1:00 p.m. Pacific Daylight
                            Time (PDT) and lasted until 11:45 p.m. PDT. 1 At first, CBP staff
                            experienced response time delays with the computer system used
                            to process passengers. Specifically, CBP reported response time
                            during the outage as averaging 2 to 3 minutes when normal CBP
                            computer system response time is under 5 seconds.

                            Starting at 4:16 p.m. PDT, CBP officers were not able to perform
                            any queries of their remote databases. At that point, CBP was
                            unable to process arriving passengers using remote systems.
                            Further, full deployment of a backup system was delayed until a
                            field technician started assisting with the deployment an hour later.

                            According to CBP estimates, this outage affected up to 17,000
                            passengers. Due to the delays in processing passengers, the
                            international arrival areas filled with passengers and the LAX fire
                            marshal restricted the number of people that were allowed in the
                            waiting areas and jet ways. As a result, new arrivals were not
                            allowed to disembark. These passengers sat on approximately 60
                            planes on the tarmac for several hours. Other operations at LAX,
                            including international departures, were also affected.
                            Additionally, several international flights were diverted to Ontario
                            International Airport, California, approximately 55 miles away.




1
    See Appendix C, August 11, 2007, LAX Network Outage Timeline, for details. 


       Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport

                                               (Redacted)

                                                   Page 2
Results of Review

        Actions Taken During the Network Outage
                          CBP staff and their communications vendor Sprint took various
                          actions to resolve the outage of the CBP network at LAX on
                          August 11, 2007. Specifically, individuals at LAX and remote
                          locations worked together to identify the cause of the outage and to
                          restore processing.

                                            12:50 p.m. PDT to 2:00 p.m. PDT

                          On August 11, 2007, at 12:50 p.m., PDT, CBP staff at LAX first
                          reported a delayed response time when querying the Treasury
                          Enforcement Communications System (TECS). 2 Additionally,
                          CBP’s NOC was alerted that they could not access the LAX router.
                          At 1:16 p.m., PDT, the NOC reported the problem with accessing
                          the router to its communications vendor, Sprint. The CBP Help
                          Desk and Duty Officer were notified of the problem.

                          The NOC instructed the CBP onsite technician at LAX to restart
                          the communications devices leading to the router by turning them
                          off and on. However, restarting these devices did not resolve the
                          problem. CBP reported query response time was now averaging
                          2 to 3 minutes, approximately 30 times slower than normal. At
                          1:55 p.m., PDT, Sprint reported to the NOC that its
                          communications lines were active and its routers at LAX
                          responded electronically. Sprint suggested that CBP restart its
                          communications equipment.

                                            2:00 p.m., PDT to 3:00 p.m., PDT

                          The NOC again asked the CBP onsite technician to restart the
                          communications devices and also to verify that there was power to
                          the router. Sprint confirmed that the circuits were not
                          disconnected. The CBP Duty Officer was notified. At 2:48 p.m.,
                          the NOC called Sprint and verified that there was power to CBP’s
                          communications equipment. The NOC was to call Sprint back
                          when CBP verified that there was power to the Sprint router.


2
 TECS is a CBP mission-critical law enforcement application designed to identify people and businesses
suspected of or involved in violation of federal law. TECS is also a communications system permitting
message transmittal among DHS law enforcement offices and other national, state, and local law
enforcement agencies.

    Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                            (Redacted)

                                                Page 3
                                      3:00 p.m., PDT to 4:00 p.m., PDT

                    CBP onsite staff confirmed that there was power to the router. The
                    CBP Duty Officer requested a status update.


                               The NOC established a teleconference call with Sprint
                    and the CBP onsite technician. At 3:57 p.m., PDT, the NOC
                    reported to Sprint that there was power to its router and requested
                    that Sprint dispatch a technician to the airport.

                                      4:00 p.m., PDT to 5:00 p.m., PDT

                    The CBP Acting Port Director and the CBP local area
                    network (LAN) field manager for Southern California requested a
                    status update. The last query of the CBP database from LAX was
                    at 4:16 p.m., PDT. The Sprint technician was dispatched to LAX
                    at 4:20 p.m., PDT.

                                      5:00 p.m., PDT to 6:00 p.m., PDT

                    A second CBP onsite technician arrived at LAX and started
                    assisting
                                                                    in terminals 4
                    and 5. The NOC provided status information on the outage to the
                    CBP Duty Officer and LAX LAN administrator.

                                      6:00 p.m., PDT to 7:00 p.m., PDT

                    A CBP field technician started assisting
                          at the Tom Bradley International Terminal (Bradley
                    Terminal). CBP’s Duty Officer set up a conference call on the
                    outage and provided the number to Sprint and the NOC. CBP’s
                    LAX Deputy Field Officer, Southern California area manager,
                    deputy area manager, and Office of Field Operations Duty Officer
                    were provided with a status update.

                    The Sprint technician arrived at the airport and verified that the
                    Sprint equipment was working correctly. Specifically, while the
                    Sprint router had been responding electronically, Sprint was not
                    able to remotely administer the router. When the Sprint technician
                    restarted the router, it restarted in a “busy” state. However, when
                    the Sprint technician disconnected the LAX LAN and then
                    restarted the router, Sprint was able to remotely administer the


Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                           Page 4
                            router. This confirmed that the problem was with the CBP LAX
                            LAN and not with Sprint equipment.

                                             7:00 p.m., PDT to 9:00 p.m., PDT

                            Sprint remote network support staff joined the conference call and,
                            with the onsite Sprint technician, started assisting CBP in
                            identifying the problem with the CBP LAX LAN. Sprint remote
                            network support instructed the Sprint technician to connect his
                            laptop computer with a modem to the CBP switch.
                            Communicating through the modem, the Sprint remote network
                            support staff evaluated the traffic on the switch with the laptop’s
                            HyperTerminal software. 3




                                             9:00 p.m., PDT to 11:00 p.m., PDT

                            By approximately 9:00 p.m., PDT, all terminals were now
                            processing passengers by accessing the CBP databases except for
                            the Bradley Terminal.


                            CBP field technicians started activities to isolate the problem.
                            They disconnected a wireless network and a media converter from
                            the network, but this action did not resolve the outage. At the
                            Bradley Terminal, the CBP field technicians continued trouble-
                            shooting by removing and replacing components of a
                            communications device without first turning the power off, a
                            process known as “hot-swapping” components. During this effort,
                            the device burned out, filling the telecommunications closet with
                            smoke. However, the CBP technicians located a decommissioned
                            switch from another section of the airport, restored functionality,
                            and then continued their problem resolution activities.




3
    Hyper Terminal is a program that comes with the Microsoft Windows operating system.
4




       Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                               (Redacted)

                                                  Page 5
                                     11:00 p.m., PDT to 11:45 p.m., PDT

                    CBP field technicians disconnected a circuit at the Bradley
                    Terminal containing 12 devices. CBP staff at the Bradley
                    Terminal could then perform database queries. The 12 devices
                    remained disconnected from the LAX LAN and full processing
                    resumed at 11:40 PM PDT.

   Lessons Learned
                    CBP has taken actions to ensure that the outage on the LAX LAN
                    does not recur, or if it recurs, that the impact will be minimized.


                                           However, further actions are necessary to
                    expedite recovery efforts following a network outage.

                    Specifically, during future events, the CBP NOC should establish
                    conference calls to keep all interested parties informed of the
                    recovery efforts. The NOC also could more effectively use onsite
                    support staff as well as other information sources. Additionally,
                    CBP should provide diagnostic tools,
                    and establish automated messaging to help identify network
                    problems in a timely fashion. Further, CBP should update the
                    LAX LAN contingency plan to provide better guidance during an
                    outage. Finally, CBP’s Security Operations Center (SOC) should
                    improve procedures for controlling devices that may be the cause
                    of an outage.

                    According to Appendix III of the Office of Management and
                    Budget Circular A-130, Management of Federal Information
                    Systems:

                             “Inevitably, there will be service interruptions. Agency
                             plans should assure that there is an ability to recover and
                             provide service sufficient to meet the minimal needs of
                             users of the system.”

                                                        **********

                             “Normally the Federal mission supported by a major
                             application is critically dependent on the application.
                             Manual processing is generally NOT a viable back-up
                             option. Managers should plan for how they will perform
                             their mission and/or recover from the loss of existing

Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                           Page 6
                             application support, whether the loss is due to the inability
                             of the application to function or a general support system
                             failure. Experience has demonstrated that testing a
                             contingency plan significantly improves its viability.
                             Indeed, untested plans or plans not tested for a long period
                             of time may create a false sense of ability to recover in a
                             timely manner.”




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                           Page 7
                                          Network Operations Center

                    CBPs NOC manages CBP’s wide area network from a central
                    location. However, on August 11, 2007, the NOC could not
                    remotely access the CBP LAN at LAX
                                                           If a similar outage were to
                    occur in the future, the NOC could take additional steps to keep
                    staff informed, resolve the outage sooner, and identify the source
                    of the outage.

                    For example, during the outage on August 11, 2007, several people
                    called the NOC to ask about the status of the outage. These callers
                    included the CBP Duty Officer, the local LAN administrator, and
                    CBP Field Operations staff. However, it was the CBP Duty
                    Officer at LAX who initiated a conference call so that all
                    concerned parties could find out the status. In the future, if an
                    outage is not resolved quickly, the NOC should establish a
                    conference call to keep all parties informed of the status of
                    resolution efforts.

                    Additionally, the CBP NOC could use onsite CBP field support
                    staff more effectively in future outages. For example, the NOC
                    had the onsite CBP field support technician turn the power off,
                    then back on, to various communications devices. However,
                    restarting these devices did not resolve the outage. At that point,
                    the NOC could have instructed the onsite support staff to perform
                    more “‘trouble-shooting” activities. Specifically, the NOC could
                    have instructed the onsite field support staff to remove connections
                    and isolate devices in an effort to identify the cause of the outage.

                    Further, CBP could provide network management tools to assist in
                    identifying and resolving network problems.

                                     The NOC could provide similar tools to onsite
                    support staff.



                            Placing network management tools onsite would allow the
                    NOC to use the onsite support staff more effectively when the
                    network is not accessible from a remote location.


Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                           Page 8
                                       Additional Information Sources

                    The NOC also could use additional information sources when
                    diagnosing problems with a remote network. For example, during
                    the outage on August 11, 2007, the CBP NOC was concerned that
                    the Sprint circuits to LAX had been disconnected. However, the
                    NOC could have determined that the circuits were active through
                    three different CBP informational sources. Specifically,

                         •	 CBP’s Automated Operations Division received network 

                            traffic information from CBP’s LAX LAN;

                         •	 The TECS database provided information on whether 

                            queries were being received from CBP’s LAX LAN; and 

                         •



                    Further, the DHCP server may be able to provide the CBP NOC
                    with specific information about the cause of an outage.




                                           Field Support Procedures

                    CBP should ensure that field support staff have the training and
                    information necessary to effectively service hardware components.
                    Specifically, these procedures should list which devices are not
                    “hot-swappable.” This information would assist onsite support
                    technicians when they are trying to resolve a network outage. For
                    example, a CBP LAX LAN communications device burned out
                    and filled the LAN room with smoke when CBP field technicians
                    erred by removing and replacing components of a communications
                    device without first turning off the device.


Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                           Page 9
                                    Contingency Planning Documentation

                    CBP should ensure that contingency planning documentation is
                    sufficient to guide staff in the event of a general support system
                    failure.




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                          Page 10
                                   Security Operations Center Procedures

                    CBP’s SOC should improve procedures for controlling devices that
                    may be the cause of an outage. For example, the CBP SOC’s and
                    our evaluations of workstations that may have been involved in the
                    outage were inconclusive. Specifically, the SOC noted that
                    rebooting one of the machines may have eliminated critical
                    information.




                    Improved SOC procedures for impounding devices and
                    maintaining a chain of custody would assist CBP when performing
                    diagnostics on other workstations that may be involved in a similar
                    outage.

   Recommendations:
                    We recommend that the CBP Chief Information Officer (CIO) take
                    the following actions for CBP activities at LAX:

                    Recommendation #1: Establish and test procedures to use NOC
                    and onsite field support staff more effectively during a network
                    outage.




                    Recommendation #3: Provide network diagnostic tools for onsite
                    support staff.




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                          Page 11
                    Recommendation #6: Improve procedures for impounding and
                    maintaining the chain of custody for computers to be evaluated.

   Management Comments and OIG Analysis
                    We obtained written comments on a draft of this report from the
                    CBP Office of Policy and Planning. We have included a copy of
                    the comments in their entirety at Appendix B.

                    In the comments, CBP concurred with recommendations one
                    through six. These recommendations will be considered resolved
                    but open pending verification of all planned actions.




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                          Page 12
   Other CBP Ports of Entry May Experience Similar Outages
                    According to CBP staff, there is a high risk that a similar outage
                    could occur at other CBP ports of entry. For example, according to
                    an August 2007 briefing CBP provided to the Congress,




                    CBP has taken various actions to ensure there is no repeat of the
                    August 11, 2007, outage on its LAN at LAX.




                    Further, CBP has updated its systems security plans to include
                    devices operating at LAX. Finally, we have made
                    six recommendations in this report to assist CBP in improving
                    system operations at LAX. CBP should determine whether these
                    improvements should also be applied at other ports of entry.




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                          Page 13
                                             System Documentation

                    CBP has taken steps to ensure that all known information
                    technology assets are included in the system security plan for the
                    LAX LAN. These include refugee fingerprint processing
                    machines and a network monitoring workstation operated by the
                    Automated Operations Division. These assets may be operating at
                    other ports of entry and may not be included in the appropriate site
                    security plan.

                    According to DHS 4300 Sensitive Security Handbook,
                    Attachment D – Type Accreditation,

                             “To account for unique physical and logical variations at
                             the site level, a description of any differences and the
                             associated risks at each site are documented, and the site-
                             specific documents are incorporated as attachments or
                             appendices to the master C&A package.”

   Recommendation:
                    We recommend that the CBP CIO:

                    Recommendation #7: Determine whether the corrective actions
                    taken at LAX should also be taken at other CBP ports of entry.

   Management Comments and OIG Analysis
                    In the comments, CBP concurred with recommendation seven.
                    This recommendation will be considered resolved but open
                    pending verification of all planned actions.




Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                        (Redacted)

                                          Page 14
Appendix A
Purpose, Scope, and Methodology


                          Our purpose was to determine whether actions taken by CBP to
                          address the August 11, 2007, outage at LAX were sufficient to
                          minimize the effects of a potential future outage. Specifically, we
                          evaluated whether the controls that CBP implemented would assist
                          in identifying the cause of an outage, facilitate deployment of
                          backup systems, and recover from the outage.

                          We coordinated the implementation of this technical security
                          evaluation program with the DHS Chief Information Security
                          Officer. We mutually agreed to the wording for the Rules of
                          Engagement for the technical testing. 5 We reviewed applicable
                          DHS and CBP policies, procedures, and CBP’s responses to our
                          site surveys and technical questionnaires. Prior to performing our
                          onsite review, we used CBP’s responses to identify occupied
                          space, server rooms, and telecommunications closets. Our onsite
                          review included a physical review of CBP space and interviews
                          with CBP staff. Our technical review included reviews of
                          workstations that may have been involved in the outage at LAX. 6

                          We provided CBP with briefings concerning the results of
                          fieldwork and the information summarized in this report. We
                          conducted this review between August 2007 and March 2008.

                          We performed our work according to the Quality Standards for
                          Inspection of the President’s Council on Integrity and Efficiency,
                          and pursuant to the Inspector General Act of 1978, as amended.

                          We appreciate the efforts by DHS management and staff to provide
                          the information and access necessary to accomplish this review.
                          Our points of contact for this report are Frank Deffer, Assistant
                          Inspector General for Information Technology, (202) 254-4100,
                          and Roger Dressler, Director for Information Systems and
                          Architectures, (202) 254-5441. Major Office of Inspector General
                          (OIG) contributors to the review are identified in Appendix D.




5
  The Rules of Engagement established the boundaries and schedules for the technical evaluations.
6
  Our analysis of three devices that may have been involved in the August 11, 2007 outage was
inconclusive.

    Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                            (Redacted)

                                                 Page 15
Appendix B
Management Comments to Draft Report




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 16
Appendix B
Management Comments to Draft Report




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 17
Appendix B
Management Comments to Draft Report




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 18
Appendix B
Management Comments to Draft Report




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 19
Appendix B
Management Comments to Draft Report




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 20
Appendix C
August 11, 2007 LAX Network Outage Timeline


                    12:50 p.m.
 1:00 p.m.                     First report of a problem
                    PDT
 PDT
                                NOC reports problems to Sprint. CBP onsite technician powers
                       1:16
                                equipment off /on and stays in contact with CBP NOC.
                       1:55     Sprints reports to NOC that its circuits are active.
      2:00
                                Between 2PM PDT and 3PM PDT, CBP onsite technician powers
                                equipment off /on. Sprint reports that its circuits are active.
       3:00
                       3:53

                       3:57     CBP requests that Sprint sends a technician to LAX.
       4:00
                       4:16     No further queries against the CBP database from this point
                                until 8:13 PM PDT
                       4:20    Sprint dispatches a technician to the airport.
       5:00            5:00     CBP onsite technician starts helping                   in Terminals 4 and 5.



       6:00            6:00     CBP onsite technician starts helping               in Tom Bradley
                                International Terminal (Bradley Terminal). Sprint technician arrives
                                onsite and verifies that Sprint equipment is working correctly.

       7:00            7:00     Sprint assisting CBP in trouble-shooting the CBP LAN at
                                LAX.


                                                                                            CBP
                       7:50
       8:00                    starts to isolate problem. Bradley Terminal subnet removed from
                               circuit.

                       8:13    CBP database gets first queries since 4:16 PM PDT. All
       9:00                    terminals can now access remote databases accept for the
                               Bradley Terminal.

                                During efforts
                                                  a switch burns out between 9PM PDT and 11PM PDT.
     10:00                      CBP field technicians find replacement parts and continue efforts to
                                isolate and resolve the problem.


     11:00


                       11:40                                       CBP LAX LAN operates
                                normally.
     12:00




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                              Page 21
Appendix D
Major Contributors to This Report




                       Roger Dressler, Director, Department of Homeland Security,
                       Information Technology Audits

                       Kevin Burke, Audit Manager, Department of Homeland Security,
                       Information Technology Audits

                       Domingo Alvarez, Senior Auditor, Department of Homeland
                       Security, Information Technology Audits

                       Beverly Dale, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Matthew Worner, Program Analyst, Department of Homeland
                       Security, Information Technology Audits

                       Sammer El-Hage, Program Management Assistant, Department of
                       Homeland Security, Information Technology Audits

                       Syrita Morgan, Program Management Assistant, Department of
                       Homeland Security, Information Technology Audits

                       Richard Saunders, Director, Department of Homeland Security,
                       Information Technology Audits

                       Steve Matthews, Department of Homeland Security
                       Information Technology Audits

                       Pamela Williams, Referencer/Senior Auditor, Department of
                       Homeland Security, Information Technology Audits




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 22
Appendix E
Report Distribution




      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Executive Secretary
      Under Secretary for Management
      Assistant Secretary for Policy
      Assistant Secretary for Public Affairs
      Assistant Secretary for Legislative Affairs
      Chief Information Officer (CIO)
      Chief Privacy Officer
      Deputy CIO
      Chief Information Security Officer
      Commissioner, CBP
      Information Systems Security Manager, CBP
      CBP Audit Liaison
      DHS Audit Liaison

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS Program Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




   Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport
                                           (Redacted)

                                             Page 23
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600,
Attention: Office of Investigations – Hotline,
          245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
